MEMORANDUM FOR:            RAYMOND BRAMUCCI
                           Assistant Secretary for
                            Employment and Training


FROM:                      JOHN J. GETEK
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Consultation Report No. 20-00-001-03-390
                           Followup Survey of Impact of Workforce Investment
                           Act Administrative Cost Limitation

Attached are two copies of the report prepared at ETA=s request by the CPA firm
of Carmichael, Brasher, Tuvell and Savage to follow up on their earlier report on
the potential impact of the Workforce Investment Act=s (WIA=s) administrative
cost provisions on entities currently operating under the Job Training Partnership
Act (JTPA). We transmitted the CPA firm=s earlier (September 2, 1999) report to
you on September 24, 1999, as OIG Consultation Report No. 20-99-006-03-390.

The earlier report summarized the results obtained in applying the definition of
WIA administration, found at 20 CFR 667.220 of the Interim Final Rule, to
Program Year (PY) 1997 costs incurred by 13 selected JTPA recipients. For the
followup, which is the subject of the attached report, ETA selected four JTPA
service delivery areas (SDAs) that had been included in the earlier review to
undergo a survey to reclassify the same costs, this time applying ETA=s proposed
revised definition of WIA administrative costs. The proposed revised definition
has not been officially circulated nor reviewed outside the Department of Labor.

Briefly, notwithstanding the unknown effect of WIA requirements (including
designation of local areas, establishment of a one-stop delivery system and other
provisions) on program operators= administrative costs, the followup survey
found that the proposed revised definition had a greater effect on the
percentage of costs charged to administration than did the Interim Final
Rule definition. Overall, for the four SDAs in the followup survey, the
administrative costs reclassified pursuant to the proposed revised definition
averaged 8.39 percent of their total allocations. This compares to 16.38 percent
on average for the 10 SDAs included in the original survey.
Individually, two of the followup SDAs would be in compliance with the 10 percent
administrative cost limitation and one would be 1 percent over the limitation. The
remaining SDA did not have significant subrecipient or vendor costs -- and therefore did
not benefit from the proposed revised administrative cost definition -- because it
essentially operated its JTPA programs in-house. The CPA firm=s report noted that the
in-house delivery of program services by local boards is not contemplated under WIA
Title I-B and is authorized only under narrowly defined circumstances as enumerated in
Section 117 (f) of the Act.

In our October 28, 1999, informal comments on ETA=s proposed revised definition, we
recommended that salaries and related costs of WIA Executive Directors at the state,
direct recipient and One-Stop operator levels be classified as administrative costs. We
continue to believe that such Afront office@ costs are inherently administrative and should
be classified as such. Moreover, the results of the followup survey suggest that the
proposed revised definition, if adopted in the upcoming Final Rule, will create sufficient
breathing room as to accommodate charging the full cost of Executive Direction to the
administrative cost category.

Please call me at 219-8404 if you have any questions or wish to arrange a briefing on
the followup results.


Attachments
     INDEPENDENT ACCOUNTANTS==
   AGREED-UPON PROCEDURES REPORT

        FOLLOW UP SURVEY OF THE
IMPACT OF THE WORKFORCE INVESTMENT ACT
     ADMINISTRATIVE COST LIMITATION
           ON JTPA RECIPIENTS
                                                   Table of Contents


                                                                                                                         Page

Acronyms................................................................................................................... i

Executive Summary ................................................................................................. 1

Independent Accountants== Report on
   Applying Agreed-Upon Procedures .................................................................. 3

Agreed-Upon Procedures and Results

    Objective .............................................................................................................. 4

    Background........................................................................................................... 4

    Scope.................................................................................................................... 5

    Survey Results...................................................................................................... 5

    Procedures Performed and Results ...................................................................... 7

Appendix 1 - Results of Survey................................................................................. 9

Appendix 2 - Detail Analysis of Results of Survey .................................................. 10
                     ACRONYMS AND GLOSSARY



AUP                  Agreed-Upon Procedures

ETA                  Employment and Training Administration

JTPA                 Job Training Partnership Act

MOU                  Memorandum of Understanding

SDA                  Service Delivery Area

USDOL                United States Department of Labor

WIA                  Workforce Investment Act

Interim Definition   The definition of administrative cost contained in 20 CFR
                     667.220 of the WIA Interim Final Rule

Revision             The proposed revision to the Interim Definition




                                     i
                                EXECUTIVE SUMMARY


The Workforce Investment Act (WIA) will supersede the Job Training Partnership Act
(JTPA) and become effective July 1, 2000. Several features of WIA, including
establishment of one-stop centers, designation of local areas, and certain program
requirements will have an unknown impact on the administrative cost experience of
program operators. A significant provision of WIA Title I is the 10 percent limitation on
administrative costs applicable to local areas.

An agreed-upon procedures (AUP) report entitled AImpact of Workforce Investment Act
Administrative Cost Limitations on JTPA Recipients,@ dated September 2, 1999, was
prepared by our firm. The September 2 AUP report indicated that applying the 20 CFR
667.220 WIA Interim Final Rule definition (AInterim Definition@) of administration to JTPA
costs had little effect on the percentage of costs charged to administration; as such, the
WIA cost limitations would not have been met in a WIA operating environment. In
consideration of our September 2 report and in an effort to provide further relief for the
WIA administrative cost definition, the Employment and Training Administration (ETA)
internally developed a proposed revised definition (ARevision@) of administrative costs
under WIA. This definition has not been officially circulated nor reviewed outside the
U.S. Department of Labor (USDOL).

From the 10 service delivery areas (SDAs) included in the initial agreed-upon
procedures report dated September 2, 1999, ETA selected four to undergo a followup
survey of the revised WIA administrative cost definition. The purpose of the survey was
to determine if administrative costs would be lowered using the proposed revised
administrative cost definition.


What We Did

We surveyed four SDAs - Job Works, Fort Wayne, Indiana; Lowell Office of
Employment and Training, Lowell, Massachusetts; Montana Job Training Partnership,
Inc., Helena, Montana; and the City of Charlotte Employment and Training Department,
Charlotte, North Carolina - to further reclassify, using the proposed revised WIA
administrative cost definition, Program Year (PY) 1997 JTPA Title II-A costs. WIA
expresses the administrative cost limitation in terms of the local area=s total allocation.
This report presents the reclassified JTPA administrative costs, as they would be
reported under the proposed revised definition, as a percentage of the SDAs= PY 1997
Title II-A allocation and also as a percentage of Title II-A expenditures for that period.

Our procedures were performed in accordance with standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards,
issued by the Comptroller of the United States. In accordance with these standards, we
rendered an independent accountants= report on applying agreed-upon procedures.




                                            1
                                          EXECUTIVE SUMMARY


Survey Results

The proposed revised definition had a greater effect on the percentage of costs charged
to administration than did the Interim Final Rule definition, depending on how the
grantee operated. As a percentage of total program allocation, two of the SDAs would
have been in compliance with the administrative cost limitation. One of the SDAs would
have been 1 percent over the limitation. The remaining SDA did not have significant
subrecipient or vendor costs and therefore did not benefit from the proposed revised
administrative cost definition.

The following chart summarizes our results. For the four SDAs surveyed, the
reclassified administrative costs averaged 8.39 percent of the SDAs= total allocation and
8.64 percent of the SDAs= total expenditures. See Appendix 1 for additional details.




                     20

                          16.69   17.19
                                            15.06     15.51
                     15
        PERCENTAGE




                     10
                                                                8.39    8.64


                      5

                                                                               Allocation
                      0                                                        Expenditures
                              JTPA         Interim Definition     Revision


Officials at three of the four SDAs believed the proposed revised definition would
provide enough relief for compliance with the WIA 10 percent statutory cost limitation.

The proposed revised definition would classify as program costs the cost of negotiating
Memorandums of Understanding (MOUs) with the One-Stop partners. ETA requested
that we obtain the SDAs= estimates of the effort involved in negotiating their MOUs.
While three of the SDAs estimated that a significant amount of time would be spent,
they were unable to provide a specific estimate of the amount of time or costs
associated with this item.




                                                       2
                    INDEPENDENT ACCOUNTANTS== REPORT
                   ON APPLYING AGREED-UPON PROCEDURES


Employment and Training Administration,
U.S. Department of Labor:

We have performed the procedures described in the Agreed-Upon Procedures and
Results section of this report, which were agreed to by the Employment and Training
Administration (ETA) of the U.S. Department of Labor (USDOL) solely to assist in
evaluating the potential impact of the Workforce Investment Act=s administrative cost
limitation (as revised by ETA) on selected Service Delivery Areas (SDAs), as listed in
Appendix 1, (prepared in accordance with the criteria specified therein).

This engagement to apply agreed-upon procedures was performed in accordance with
standards established by the American Institute of Certified Public Accountants and
Government Auditing Standards, issued by the Comptroller General of the United
States.

The sufficiency of these procedures is solely the responsibility of the specified users of
the report. Consequently, we make no representations regarding the sufficiency of the
procedures described later in this report either for the purpose for which this report has
been requested or for any other purpose.

We were not engaged to, and did not perform an audit, the objective of which would be
the expression of an opinion on the potential impact of the Workforce Investment Act=s
administrative cost limitation (as revised by ETA) on selected SDAs. Accordingly, we
do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report should not be used by those who have not agreed to the procedures and
taken responsibility for the sufficiency of the procedures for their purpose thereof. This
report is intended solely for the information and use of the U.S. Department of Labor
and is not intended to be and should not be used by anyone other than these specified
parties.

CARMICHAEL, BRASHER, TUVELL & SAVAGE



Atlanta, Georgia
December 15, 1999

                                            3
                   AGREED-UPON PROCEDURES AND RESULTS


                          Objective, Background and Scope

Objective

The objective of the agreed upon procedures performed in this report was to assist ETA
in determining if the proposed revised definition of administrative costs would enable a
sample of SDAs to comply with the 10 percent statutory limitation on administrative
costs.

From the 10 service delivery areas (SDAs) included in the initial agreed-upon
procedures report dated September 2, 1999, ETA selected four to undergo a followup
survey of the revised WIA administrative cost definition. The purpose of the survey was
to determine if administrative costs would be lowered using the proposed revised
administrative cost definition.

Background

The Workforce Investment Act (WIA) will supersede the Job Training Partnership Act
(JTPA) and become effective July 1, 2000. Several features of WIA, including
establishment of one-stop centers, designation of local areas, and certain program
requirements will have an unknown impact on the administrative cost experience of
program operators. A significant provision of WIA Title I is the 10 percent limitation on
administrative costs applicable to local areas.

An agreed-upon procedures (AUP) report entitled AImpact of Workforce Investment Act
Administrative Cost Limitations on JTPA Recipients,@ dated September 2, 1999, was
prepared by our firm. The September 2 AUP report indicated that applying the 20 CFR
667.220 WIA Interim Final Rule definition (AInterim Definition@) of administration to JTPA
costs had little effect on the percentage of costs charged to administration; as such, the
WIA cost limitations would not have been met in a WIA operating environment. In
consideration of our September 2 report and in an effort to provide further relief for the
WIA administrative cost definition, the Employment and Training Administration (ETA)
internally developed a proposed revised definition (ARevision@) of administrative costs
under WIA. This definition has not been officially circulated nor reviewed outside the
U.S. Department of Labor (USDOL).

ETA internally developed a proposed revision to the interim final rule definition at 20
CFR 667.220. The major changes of the proposed revision would charge as program
costs:

      $      All costs under awards to subrecipients and vendors below the One-Stop
             operator level for program functions.

      $      All non-administrative costs of One-Stop operators.



                                            4
                   AGREED-UPON PROCEDURES AND RESULTS


      $      Costs of oversight and monitoring program subrecipients and vendors
             below the One-Stop operator level.

      $      Costs involved in negotiating MOUs and developing program plans.

Scope

We surveyed four SDAs - Job Works, Fort Wayne, Indiana; Lowell Office of
Employment and Training, Lowell, Massachusetts; Montana Job Training Partnership,
Inc., Helena, Montana; and the City of Charlotte Employment and Training Department,
Charlotte, North Carolina - to further reclassify, using the proposed revised WIA
administrative cost definition, Program Year (PY) 1997 JTPA Title IIA costs. WIA
expresses the administrative cost limitation in terms of the local area=s total allocation.
This report presents the reclassified JTPA administrative costs, as they would be
reported under the proposed revised definition, as a percentage of the SDAs= PY 1997
Title II-A allocation and also as a percentage of Title II-A expenditures for that period.

Our procedures were performed in accordance with standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards,
issued by the Comptroller of the United States. In accordance with these standards, we
rendered an independent accountants= report on applying agreed-upon procedures.

Survey Results

Applying ETA=s proposed revised definition of administration to JTPA PY 1997 Title II-A
costs had the following results:

      $      Based on the percentage of administrative cost against their total program
             allocation, two of the SDAs would have been in compliance with the WIA
             administrative cost limitation. A third SDA was 1 percent over the
             limitation. The fourth SDA did not benefit from the revised definition
             because it did not have any subrecipient or vendor costs. This fourth SDA
             essentially operated the entire JTPA program, including the provision of
             training services, in-house. The in-house delivery of program services by
             local boards is not contemplated under WIA section 117 (f), which (1)
             provides that local boards may deliver core and intensive services only
             with the approval of the chief elected official and the Governor and (2)
             prohibits local boards from providing training services except as waived by
             the Governor for a period of up to 1 year, renewable for not more than 1
             additional year. Such waivers may be revoked by the Governor.




                                            5
         AGREED-UPON PROCEDURES AND RESULTS


$   Officials from three of the four SDAs believed the proposed revised
    definition would provide enough relief for compliance with the 10 percent
    statutory limitation on administrative costs. The fourth SDA, Ft. Wayne,
    IN, responded that the proposed revised definition did not provide relief to
    their SDA for purposes of this survey because they did not contract out
    any of their Adult IIA training.

$   A change in the proposed revised definition would classify as program
    costs the cost of negotiating Memorandums of Understanding (MOUs)
    with the One-Stop partners. ETA requested that we obtain the SDAs=
    estimates of the effort involved in negotiating their MOUs. One of the four
    SDAs= officials had incurred time during the 1997 program year
    negotiating MOUs and was able to determine approximately 75 hours
    were spent on such activities. The other three SDAs could not provide
    specific hours, but estimated that a significant amount of time would be
    involved.




                                  6
                      AGREED-UPON PROCEDURES AND RESULTS


Procedures Performed and Results

For four SDAs, certain agreed-upon procedures were performed with the following
results:

        Agreed-Upon Procedures Performed                                Results of Procedures

 Preliminary Work                                         Differences were noted in the classification of
                                                          some costs as program under the proposed
 1. Review revised administrative cost definition         revised WIA administrative cost definition which
    prepared by ETA                                       were administrative under the interim definition.
                                                          The revised WIA administrative definition adjusted
 2.   Arrange and conduct entrance conference             the following costs from administrative costs to
      with SDA official to review engagement              program costs:
      objectives                                          # All costs under awards to subrecipients and
                                                               vendors below the One-Stop operator level
                                                               for program functions.
                                                          # All non-administrative costs of One-Stop
                                                               operators.
                                                          # All costs involved with performing oversight
                                                               and monitoring of program subrecipients and
                                                               vendors.
                                                          # Costs of individuals involved in negotiating
                                                               MOUs and developing program plans.
                                                               Differences in how administrative costs were
                                                               defined were enumerated.

 Reclassification of Costs                                The SDA officials provided the details of the
                                                          administrative costs under the original WIA
 1.   Interview SDA officials and review records to       regulations which would be reclassified to
      determine what costs the SDA had incurred           program costs under the proposed revised
      in the 1997 program year which were now             definition.
      program costs under the revised definition of       # Two SDAs - Lowell, MA (7.28%) and Helena,
      WIA administrative costs.                                MO (5.00%) - would have been in
                                                               compliance with the 10 percent cost
 2.   Adjust the results of the initial agreed upon            limitation using the proposed revised
      procedures for the computation of JTPA                   definition.
      costs under the original WIA regulations for        # One SDA - Charlotte, NC (11.09%) was 1
      the new definition of administrative costs               percent over the limitation.
      under the revised WIA regulations.                  # One SDA - Fort Wayne, IN (18.45%) did not
                                                               benefit from the revised definition because it
                                                               did not have any subrecipient or vendor
                                                               costs, but essentially operated the entire
                                                               JTPA program in-house.           The in-house
                                                               delivery of program services by local boards
                                                               is not contemplated under WIA Title I-B, as
                                                               provided in Section 117 (f) of the Act.




                                                      7
                      AGREED-UPON PROCEDURES AND RESULTS



Views of SDA Officials                                 We surveyed the SDA officials for their comments
                                                       regarding the revised statutory and/or regulatory
Interview SDA officials regarding the revised          language of the WIA regulations and the
regulations and their estimated time required to       estimated time required to negotiate MOUs with
negotiate MOUs.                                        their One-Stop partners.

                                                       A summary of those responses follow:

                                                           $ Three of the four SDAs= officials believed
                                                             that ETA=s proposed revised definition of
                                                             administrative costs would allow their
                                                             SDA to comply with the WIA regulations.
                                                             The fourth SDA, Ft. Wayne, IN,
                                                             responded that the proposed revised
                                                             definition did not provide relief to their
                                                             SDA for purposes of this survey because
                                                             they did not contract out any of their Adult
                                                             IIA training.

                                                           $ One of the four SDAs= officials had
                                                             incurred time during the 1997 program
                                                             year negotiating MOUs and was able to
                                                             determine approximately 75 hours were
                                                             spent on such activities. The other three
                                                             SDAs could not provide specific hours,
                                                             but estimated that a significant amount of
                                                             time would be involved.

Statement of Facts                                     An exit conference was conducted at which the
                                                       SDA officials were presented with the Statement
Prepare statement of facts for SDA official to         of Facts which summarized the results for their
conduct exit conference.                               SDA of the administrative costs which would be
                                                       reallocated to program costs under the revised
                                                       WIA regulations. A summary of these results is
                                                       contained in Appendix 2.




                                                   8
                                                                APPENDIX 1




                    Administrative Costs as a Percentage of
                                                         Allocation
              25
                   21.82
              20
 PERCENTAGE




                           18.57 18.45
                                                                  16.32
                                                                          15.03             15.35
              15                                                                                    14.68
                                         13.49
                                                 11.64                                                      11.09
              10
                                                         7.28
                                                                                  5.00
              5
                                                                                                                         JTPA
              0                                                                                                          Interim
                   Fort Wayne, IN          Lowell, MA              Helena, MO               Charlotte, NC                Definition
                                                                                                                         Revision
                                                            SDAs




                     Administrative Costs as a Percentage of
                                                     Expenditures
              25
                    21.82
              20            18.5718.45
PERCENTAGE




                                           16.45                     16.32
                                                                             15.03              15.5314.85
              15                                   14.18
                                                                                                                11.22
              10                                           8.87

                                                                                     5.00
               5
                                                                                                                        JTPA
               0                                                                                                        Interim
                   Fort Wayne, IN            Lowell, MA               Helena, MO                Charlotte, NC           Definition
                                                                                                                        Revision
                                                                SDAs




                                                                    10
                                            APPENDIX 2

The total JTPA allocation to the SDAs for the 1997 program year per SDA was:

                           GRANTEE                                          TOTAL ALLOCATION

 Job Works, Fort Wayne, Indiana                                                                    $777,896

 Lowell Office of Employment and Training, Lowell,
                                                                                                   $710,650
 Massachusetts

 Montana Job Training Partnership, Inc., Helena, Montana                                       $2,549,188

 City Of Charlotte Employment and Training Department,
                                                                                                   $590,998
 Charlotte, North Carolina



The JTPA administrative costs, the WIA administrative cost, and the administrative
costs under the revised WIA regulations, as a percentage of the total JTPA allocation to
the SDAs were:

                                                                                     WIA
                                    JTPA                       WIA
                                                                                    Revised
 GRANTEE                           Admin.           %         Admin.        %                         %
                                                                                    Admin.
                                    Cost                       Cost
                                                                                     Cost

 Fort Wayne, IN                     $169,738    21.82         $144,417     18.57       $143,515       18.45

 Lowell, MA                          $95,891    13.49           $82,704    11.64         $51,733       7.28

 Helena, MO                         $416,148    16.32         $383,155     15.03       $127,562        5.00
 Charlotte, NC                       $90,699    15.35           $86,773    14.68         $65,559      11.09



The adjustments reallocating costs from JTPA administrative costs to the administrative
costs as defined by the revised WIA regulations are as follows:

                                                                   SDAs
        Adjustments
                                  Fort Wayne, IN         Lowell, MA       Helena, MO       Charlotte, NC

 JTPA Administrative Costs              $169,738             $95,891         $416,148               $90,699

           Salaries & Benefits          (25,221)             (28,058)         (89,762)                    0

               Sub-Contractors                 0             (16,100)        (198,824)             (25,100)

                         Other            (1,002)                     0                0               (40)

              Total Adjustments         (26,223)             (44,158)        (288,586)             (25,140)

 WIA Revised
                                        $143,515             $51,733         $127,562               $65,559
 Administrative Costs



                                                    11
